                                 Closeout for M99020004

On February 18, 1999, an NSF Division Director1 informed us of a possible breach of
confidentiality and improper bias in a panel review and we opened a case. The relevant
Program Manage? told us that one of the panel members3 (the advocate) was an unusually
strong supporter of a particular proposal" and may have persuaded other panel members to
elevate their rankings of it. The Program Manager also relayed to us that she had learned
that the PIS of the proposal in question had been informed of his proposal's confidential
ranking by the review panel before she had communicated this information to him.

We interviewed, by random choice, th~-ee~">~ of the nine panel review participants. Invariably
they described the panel as being fair and without unusual levels of advocacy and undue
influence. None of the three panelists admitted to disclosing confidential information or
knowing of anyone who did. Based on these interviews, the allegation of improper bias in
the panel review could not be substantiated.

In an initial telephone interview with us, the advocate stated that he did not disclose to
anyone confidential information from the panel review. Additionally, his characterization of
the panel echoed the sentiments of the three panel review participants.

We asked the PI if anyone had revealed to him confidential information from a panel review
regarding his proposal. He said he had been provided with details as to the review and
ranking of his proposal. When asked for the name of the informant, the PI identified the
advocate.

We sent a letter to the advocate inquiring, for the second time, whether he had divulged
confidential information from a review panel to anyone not on the panel and if so, to whom
it was divulged. In his reply, the advocate admitted to calling the PI and telling him that he
had reviewed his proposal quite favorably and also that his proposal had been ranked
number one by the panel.

We recommended to the advocate that he reexamine NSF's policy regarding the external
review of proposals, especially the section on maintaining confidentiality, and provide us his
written assurances that he fully understood these policies and his promise to strictly adhere
to them in the future. The advocate complied in full with our recommendations. We
concluded that beyond these assurances and promise, further inquiry was not warranted
because the advocate revealed confidential information to only the PI and it was limited to
the review and ranking of the PI'S proposal and also because the advocate was relatively
inexperienced as a panel reviewer.



L

3
4
5
    Footnotes Redacted




                                         Page 1 of 2
                                  Closeout for M99020004

This inquiry is closed and no further action will be taken.

cc: Integrity, IG




                                          Page 2 of 2
